Senior Executive Travel




The Smithsonian
Institution Should
Strengthen Travel
Related Policies and
Procedures




Office of the Inspector General
Report Number A-12-05
March 8, 2013
         Smithsonian Institution
         Office of the Inspector General


                                The Smithsonian Institution Should
In Brief                        Strengthen Travel Related Policies and
                                Procedures, A-12-05, March 8, 2013
                                                                                                        

Why We Did This Audit           What We Found

While the Smithsonian           Overall, we determined that the senior executive trips reviewed
Institution had well-           were for authorized purposes and travel expenses were
publicized problems             reasonable. We also did not find any travel abuse or material
involving travel abuse by       violations of Smithsonian policies for the trips reviewed.
several former senior           However, we identified internal control weaknesses in the
executives more than 4          Smithsonian’s policies and procedures. Specifically, we found
years ago, recent episodes      that:
elsewhere in government
involving extravagant           		 Those approving or reviewing travel for senior executives are
spending on conferences             often organizationally removed from the travelers’ units and
and travel, highlight the           do not have supervisory authority over travelers.
need for continued
vigilance in this important     		 The Smithsonian needs to develop and implement policies
area.                               and procedures for earning and documenting compensatory
                                    time off for travel.
We conducted this audit as
a follow-up to earlier OIG      		 Some of the trips sponsored by outside entities lacked proper
reviews that found                  documentation and were not included in the Smithsonian
weaknesses in the                   travel management system.
oversight of travel.
                                		 Smithsonian staff used purchase orders to pay for travel
What We Looked At                   expenses. However, travel expenses on purchase orders are
                                    not subject to review by an authorized travel approver.
We conducted this audit to
assess whether (1)              		 The Smithsonian needs to update and enforce the Overseas
executive travelers                 Tour Renewal Agreement Travel policy for permitting an
complied with laws,                 employee and immediate family to return to their place of
regulations, and                    residence.
Smithsonian policies and
procedures, including           What We Recommended
accompanying spousal
travel; (2) travel              We made eight recommendations for the Smithsonian to
management controls             strengthen and update policies and procedures related to the
operated properly,              oversight and execution of travel.
including oversight by the
Board of Regents and            Management and the Board of Regents concurred with our
other authorities; and (3)      findings and recommendations and have proposed corrective
travel was for authorized       actions to address the recommendations. We will continue to
purposes and for                monitor their progress towards completion of these
reasonable amounts.             recommendations.
                                 For additional information or a copy of the full report, contact the
                                 Office of the Inspector General at (202) 633-7050 or visit
                                 http://www.si.edu/oig.
           Smithsonian Institution 	                                               Memo

          Office ofthe Inspector General


   Date    March 8, 2013

     To   France Cordova, Chair of the Board of Regents 

          John McCarter, Vice-Chair of the Board of Regents and Chair of the 

            Audit and Review Committee 

          Roger Sant, Chair of the Governance and Nominating Committee, 

            Board of Regents 

          Albert Horvath, Under Secretary for Finance and Administration/ 

            Chief Financial Officer 


     cc 	 G. Wayne Clough, Secretary 

          Richard Kurin, Under Secretary for History, Art, and Culture 

          Eva Pell, Under Secretary for Science 

          John Lapiana, Chief of Staff to the Board of Regents 

          Patricia Bartlett, Chief of Staff, Office of the Secretary 

          Judith Leonard, General Counsel 

          James Douglas, Director, Office of Human Resources 

          Dorothy Leffler, Director, Office of Contracting and Personnel 

            Property Management 

          Andrew Zino, Comptroller 

          Stone Kelly, Program and Budget Analyst, Office of Planning, 

            Management and Budget

 From     ScottS. Dahl, Inspector General    ~

Subject   Review of Senior Executive Travel, A-12-05

          Attached please find a copy of our final report titled The Smithsonian
          Institution Should Strengthen Travel Related Policies and Procedures.

          We made six recommendations to management to (1) strengthen the travel
          review process of senior executives for trips over an established threshold,
          (2) revise policies and procedures relating to compensatory time off for
          travel, (3) reinforce to staff that all sponsored trips should be authorized in
          the Smithsonian's travel information system, ( 4) ensure that travel expenses
          paid through a purchase order are subject to the same standards of review
          as other travel expenses, and (5) strengthen the Smithsonian's Overseas
          Tour Renewal Agreement Travel policies and procedures.

          We made two recommendations to the Board of Regents to (1) strengthen
          the travel review process of the Secretary's trips over an established
          threshold, and (2) reassess whether all senior executives should be eligible
          to earn compensatory time off for travel.

          MRC524 

          PO Box37012 

          Washington DC 20013-0712 

          202.633.7050 Telephone 

          202.633-7079 Fax
We appreciate the courtesy and cooperation of all Smithsonian staff during
this review.

Please call me or Michael Sinko, Assistant Inspector General for Audits, on
202.633 .7050 if you have any questions.
SMITHSONI
SMITHSONIAN INSTITUTION 	                           OFFI
                                                    OFFICE
                                                        CE OF TH
                                                              THEE INS
                                                                   INSPPEC
                                                                        ECTO
                                                                           TOR
                                                                             R GE
                                                                               GENERA
                                                                                 NERAL



                                  INTRODUCTION 


This report presents the results of our review of senior executive travel at the
Smithsonian Institution. Smithsonian senior executives frequently have domestic
and international travel needs for pursuing scholarship, research, operational site
visits, or fundraising. While the Smithsonian’s well-publicized problems involving
travel abuse by several former senior executives occurred more than 4 years ago,
recent episodes elsewhere in government involving extravagant spending on
conferences and travel highlight the need for continued vigilance of this important
area, particularly in this constrained budget environment.

The Office of the Inspector General (OIG) conducted this audit of senior executive
travel as a follow-up to earlier OIG reviews that found weaknesses in travel
oversight.

In an effort to improve accountability over travel operations, Smithsonian
management implemented the 2007 Governance Committee recommendations for
monitoring senior executive travel. This included quarterly compliance reviews
conducted by Office of the Comptroller (OC) of all executive travel.

Our objectives were to assess whether: 1) executive travelers complied with laws,
regulations, and Smithsonian policies and procedures, including for accompanying
spousal travel; 2) travel management controls operated properly, including
oversight by the Board of Regents and other authorities; and 3) travel was for
authorized purposes and for reasonable amounts.

In addition to reviewing the travel records, we examined the review process
established by OC for quarterly assessments of all senior executive travel.

We conducted a review of a sample of senior executives’ travel. A detailed
description of our objectives, scope, and methodology is included in Appendix A.

                                RESULTS IN BRIEF

Overall, we determined that the senior executive trips reviewed were for authorized
purposes and travel expenses were reasonable. We also did not find any travel
abuse or material violations of Smithsonian policies for the trips reviewed.
However, we identified internal control weaknesses in Smithsonian’s policies and
procedures. We determined that management needs to improve oversight of
executive travel by strengthening Smithsonian policies to make them consistent
with federal travel rules relating to:

   		 Supervisory approval or review of trip justification for senior executive travel;

   		 Earning and documenting compensatory time off for travel (comp-time off for
       travel);




                                           2


SMITHSONI
SMITHSONIAN INSTITUTION 	                          OFFI
                                                   OFFICE
                                                       CE OF TH
                                                             THEE INS
                                                                  INSPPEC
                                                                       ECTO
                                                                          TOR
                                                                            R GE
                                                                              GENERA
                                                                                NERAL



   		 Oversight of travel for special circumstances, such as sponsored travel;

   		 Purchase orders used for group travel expenses; and

   		 The Overseas Tour Renewal Agreement Travel policy that permits an
       employee and immediate family to return to their place of residence in the
       continental United States between overseas tours of duty.

What We Found

We found that travel approvers for senior executives are often organizationally
removed from the travelers’ unit and do not have supervisory authority over
travelers. Therefore, approvers may be unable to exercise meaningful oversight of
senior executive travel to determine whether the trip is essential to further the
mission of the unit or the Smithsonian, as set forth by Federal Travel Regulations
(FTR). Although we did not identify any abuses of travel, the risk of unnecessary
travel increases when senior executives travel without sufficient oversight by
officials who are familiar with the mission needs or have supervisory authority over
the traveler.

The Smithsonian needs to develop and implement policies and procedures for
earning and documenting comp-time off for travel. Comp-time off for travel may be
earned by an employee for time spent in a travel status away from the employee's
official duty station when such time is not otherwise compensable (i.e., outside of
normal duty hours). We found that, unlike federal agencies we examined, the
Smithsonian has not defined essential terms relating to comp-time off for travel nor
has it established policies and procedures for earning and documenting comp-time
off for travel hours. In addition, the Smithsonian’s practice of allowing all senior
executives to earn comp-time off for travel is not in line with federal agencies’
practices.

For travel under special circumstances, such as premium upgrades due to a medical
condition, spousal accompaniment, and sponsored travel, we found that senior
executives generally complied with Smithsonian policies and procedures. We did
find that some of the sponsored trips lacked proper documentation and were not
included in the Smithsonian travel management system.

We also found that Smithsonian staff used purchase orders (PO) to pay for group
travel expenses for senior executives—such as hotels, transportation, and guided
tours in foreign destinations. We determined that subordinates were approving
these POs, even though they did not have the authority to approve travel expenses.
We believe that the use of POs increases the risk that Smithsonian could fail to
conform to its travel policies and procedures.

We also found that the Smithsonian needs to update and enforce the Overseas Tour
Renewal Agreement Travel policy for permitting an employee and immediate family
to return to their place of residence. Specifically, service agreements need to align



                                         3


SMITHSONI
SMITHSONIAN INSTITUTION                             OFFI
                                                    OFFICE
                                                        CE OF TH
                                                              THEE INS
                                                                   INSPPEC
                                                                        ECTO
                                                                           TOR
                                                                             R GE
                                                                               GENERA
                                                                                 NERAL



with the FTR, and management needs to enforce the policies to ensure compliance
with the FTR.

We examined the reports and analysis that OC used to conduct quarterly
assessments of senior executive travel within the scope of our review. We found
OC’s review process and procedures to be adequate for those executives.

What We Recommended

We made recommendations to (1) strengthen the travel review process for trips
over an established threshold, (2) ensure that travel expenses paid through a
purchase order are subject to the same standards of review as other travel
expenses, and (3) reinforce to staff that all sponsored trips should be authorized in
Smithsonian’s travel information system.

We made a recommendation for management to strengthen the policies and
procedures relating to comp-time off for travel to be consistent with federal
policies. We also recommended that the Board of Regents reassess whether all
senior executives should be eligible to earn comp-time off for travel, again to be
consistent with federal policies.

We recommended revising the Smithsonian’s policies and procedures relating to
Overseas Tour Renewal Agreement Travel, including developing standardized
service agreements in accordance with the FTR.

Management concurred with our findings and recommendations and has proposed
corrective actions that will address the recommendations. Please refer to Appendix
B for management’s complete response.

The Board also concurred with our findings and recommendations and has proposed
corrective actions that will address the recommendations directed to the Board.
Please refer to Appendix C for the Board’s complete response.

                                   BACKGROUND

Many Smithsonian senior executives travel extensively, both domestically and
internationally, to speak at conferences, attend meetings, conduct site visits, and
perform research. In addition, senior executives are required to travel to cultivate
potential donors throughout all phases of fundraising. Hence, senior executive
travel at the Smithsonian is necessary to promote its overall mission of increasing
and diffusing knowledge through research, education, and outreach.

The Smithsonian defines senior executives as those employees whose duties are
classified above a General Schedule grade 15 and are comparable to those of
senior-level employees in executive branch agencies. The Smithsonian senior
executives are categorized as either federal employees (paid with appropriations) or
trust employees (paid with non-appropriated funds also known as trust funds).



                                          4


SMITHSONI
SMITHSONIAN INSTITUTION                             OFFI
                                                    OFFICE
                                                        CE OF TH
                                                              THEE INS
                                                                   INSPPEC
                                                                        ECTO
                                                                           TOR
                                                                             R GE
                                                                               GENERA
                                                                                 NERAL



Each category has its own pay scale and benefit programs. All Smithsonian senior
executives have an annual pay rate of at least the minimum rate for federal
employees in senior-level positions. However, salaries for some senior trust
executives, including the Secretary, are based on market medians and may exceed
federal pay plans.

For this review, we judgmentally sampled 36 of the 66 travelers defined as senior
executives between fiscal years (FY) 2009 and 2011. Specifically, our sample of
travel included senior executive trips that were $3,000 or more, all spousal trips
where the Smithsonian paid some of the travel expenses, and sponsored trips that
were in excess of 7 days. We also reviewed all of the Secretary’s travel from July
2008 through March 2012, representing the Secretary’s start-date up to the
inception of this audit. Trips taken by senior executives and spouses reviewed,
including the Secretary, totaled $846,430, from Smithsonian federal and trust
funds. This amount does not include all sponsored travel costs paid by third parties.
Federal funds were used to pay for approximately 16% of the total travel costs.
However, all the trips taken by the Secretary and his spouse were paid with trust
funds.

In FY 2011, the Smithsonian spent $794,606 on senior executive travel, or 6
percent of total Smithsonian-wide travel expenses. Total travel expenses for all
employees account for about one percent of the Smithsonian’s total expenses for
FY 2011.

Travel for Development Purposes

Development at the Smithsonian is the process of raising funds through the
cultivation of long-standing philanthropic relationships with individuals,
corporations, and foundations. The development process is ongoing and includes
several phases: discovery, cultivation, solicitation, and stewardship. Throughout
this process, the Smithsonian develops relationships that may eventually result in
donations of private funds to supplement funding for an array of Smithsonian
programs.

In FY 2011, Smithsonian operating revenue totaled $1.15 billion, of which $158
million was received through contributions and private grants from individuals,
corporations, and foundations. As illustrated in the following chart, the majority of
the Smithsonian’s operating revenue, 62%, comes from federal appropriations.




                                          5


SMITHSONI
SMITHSONIAN INSTITUTION                                  OFFI
                                                         OFFICE
                                                             CE OF TH
                                                                   THEE INS
                                                                        INSPPEC
                                                                             ECTO
                                                                                TOR
                                                                                  R GE
                                                                                    GENERA
                                                                                      NERAL




                          Smithsonian Sources of Funds

                                                                      15%
    Federal Appropriations
                                               62%
    Contributions & Private Grants
    Government Grants & Contracts                                           11%

    Investment Earnings
    Business Ventures                                                  5%
    Other                                                             4%
                                                                 3%


Source: Smithsonian Institution’s FY2011 Annual Report

Contributions and private grants are essential for the Smithsonian to be able to
undertake innovative research, expand and strengthen national collections, develop
and build new facilities, open state-of-the-art exhibitions, and reach out to
America’s diverse communities. Many senior executives, including the Secretary
and museum directors, are expected to actively participate in fundraising activities
to cultivate donor relationships. The Smithsonian’s Office of Advancement monitors
each unit’s progress towards meeting its fundraising goals. Travel is necessary to
meet with donors and potential donors. In fact, as the Smithsonian plans for its
national fundraising campaign, travel is expected to increase.

Smithsonian Travel Policy and Procedures

Although the Smithsonian is not a federal executive agency, Smithsonian Directive
312, Travel, incorporates federal regulations. This directive refers Smithsonian units
to the Smithsonian Institution Travel Handbook (Travel Handbook). The Travel
Handbook provides specific instructions for completing travel authorizations and
vouchers. It also contains information on comp-time off for travel, as well as
policies on spousal and sponsored travel. Sponsored travel occurs when
Smithsonian employees accept financial support from an external source to fund
travel expenses.

The Smithsonian uses GovTrip, a General Services Administration approved web-
based system, to electronically create and process all travel authorizations,
vouchers, and supporting documentation. Smithsonian employees must have an
approved travel authorization in GovTrip prior to commencing any official travel. In
order for travel expenses to be approved for payment, travelers must submit
vouchers and attach the appropriate documentation in GovTrip upon completion of
travel.




                                                6


SMITHSONI
SMITHSONIAN INSTITUTION 	                          OFFI
                                                   OFFICE
                                                       CE OF TH
                                                             THEE INS
                                                                  INSPPEC
                                                                       ECTO
                                                                          TOR
                                                                            R GE
                                                                              GENERA
                                                                                NERAL



Smithsonian Management’s Oversight of Travel

Board Oversight of Travel

In response to Congressional criticism, the Board of Regents formed the
Governance Committee in 2007 with a mandate to comprehensively review the
policies and practices of the Smithsonian and how the Board conducts its oversight
of the Smithsonian. The Committee made recommendations to strengthen the
culture of accountability at the Smithsonian, including travel. These
recommendations were designed to improve management’s ability to monitor
critical operations of the Smithsonian and to hold staff, as well as themselves, more
accountable.

In 2007, the Board of Regents approved the Governance Committee’s
recommendations and adopted the following policies in reference to executive
travel:

   		 The Board of Regents Audit and Review (A&R) Committee will review the
       Secretary’s travel expenses for reasonableness and compliance with
       Smithsonian policies. The A&R Committee will report to the Board at least
       annually on the results of this review, including any deviations from
       Smithsonian policies.

   		 The Chief Financial Officer (CFO) will conduct periodic audits of travel and
       entertainment expenses incurred by the Secretary and senior executives and
       report the results of such audits to the A&R Committee.

Office of the Comptroller Compliance Reviews

Beginning in FY 2008, OC’s Financial Policies & Procedures Division, on behalf of the
CFO, initiated compliance reviews of all senior executive travel expenses. Currently,
OC performs these reviews on a quarterly basis and periodically reports its findings
to the A&R Committee. Management informed us that effective December 3, 2012,
the Under Secretary for Finance and Administration and Chief Financial Officer
(USFA/CFO) transferred oversight of Smithsonian travel operations from OC to the
Office of Contracting and Personal Property Management (OCon&PPM).




                                          7


SMITHSONI
SMITHSONIAN INSTITUTION                            OFFI
                                                   OFFICE
                                                       CE OF TH
                                                             THEE INS
                                                                  INSPPEC
                                                                       ECTO
                                                                          TOR
                                                                            R GE
                                                                              GENERA
                                                                                NERAL



                                RESULTS OF AUDIT 


We found that the senior executive travel and accompanying spousal travel we
reviewed generally complied with applicable laws, as well as Smithsonian policies
and procedures. We also found that the travel was for authorized purposes and
reasonable amounts.

However, we determined that Smithsonian travel policies and procedures need to
be strengthened and made consistent with federal travel rules, specifically relating
to the following areas: the travel review process, comp-time off for travel, oversight
of sponsored travel, purchase orders used for travel-related expenses, and
Overseas Tour Renewal Agreement Travel.

Reviewing Senior Executive Travel at Appropriate Levels

We determined that travel authorizations and vouchers generally were not
approved by the senior executive traveler’s supervisor. Currently, travel
authorizations and vouchers for most senior executives, including the Secretary,
are approved by designated staff within the Office of the USFA/CFO. These
approvers are organizationally removed from the traveler’s unit and may be unable
to assess whether the trip is essential to the performance of the traveler’s
responsibilities.

The Travel Handbook states that the approving official for authorizations and
vouchers is the traveler’s immediate supervisor. The immediate supervisor may
delegate the approval authority to a peer of the immediate supervisor, a second
level (or higher) supervisor, or a designated management official—never a
subordinate of the traveler.

The FTR states that an agency head or an official to whom such authority has been
delegated must sign a travel authorization. This authority may be delegated to any
person(s) who is (a) aware of how the authorized travel will support the agency’s
mission, (b) knowledgeable of the employee’s travel plans, or (c) responsible for
the funds paying for the travel involved.

In 2010, Smithsonian management decided to consolidate the approval process for
almost all senior executives (approximately 65) to one person within the
USFA/CFO’s office. This decision eliminated the required review and oversight of the
travel within the traveler’s chain of command. However, according to Smithsonian
management, there are mitigating controls in place that reduce the risk of travel
abuse, including the quarterly OC review.

Regarding the Secretary’s travel, a Board of Regents official stated that the Board
believes the USFA/CFO is the most appropriate executive manager to approve the
Secretary’s travel. The official also stated that the Board Chair has weekly meetings




                                          8


SMITHSONI
SMITHSONIAN INSTITUTION                             OFFI
                                                    OFFICE
                                                        CE OF TH
                                                              THEE INS
                                                                   INSPPEC
                                                                        ECTO
                                                                           TOR
                                                                             R GE
                                                                               GENERA
                                                                                 NERAL



with the Secretary in which the Secretary provides post-trip updates on his recent
travel. In addition, the Board periodically receives travel compliance reports from
OC on all senior executive travelers, including the Secretary.

We also reviewed practices for board oversight of the heads of five other entities
including a museum, art gallery, performing arts center, not-for-profit entity, and a
university in the Washington, D.C. area. We found that other boards are not
involved in pre-travel review for entity heads. We confirmed that some boards
perform post-trip reviews of travel for reasonableness and compliance with their
respective policies.

For senior executives, we determined that Smithsonian’s travel approval process is
inconsistent with the principles outlined in the FTR. The current travel approver is
organizationally removed from the senior executive traveler and is likely to be
unaware of how the travel supports the unit’s mission. In addition, there is no
documented supervisory pre-review of the senior executive travel justifications.
This poses a risk that senior executives could take trips that do not further the
unit’s mission. In the case of the Secretary, his approver is organizationally
removed and is also a subordinate, which is inconsistent with both the Travel
Handbook and FTR.

We are not suggesting that supervisory review is necessary for every trip taken by
a senior executive because we believe that the administrative burden would be high
based on the frequency of senior executive travel. Furthermore, in the case of the
Secretary, having Board approval of the Secretary’s travel is not administratively
feasible. Consequently, for effective oversight of senior executive travel we believe
that management and the Board should through a risk-based analysis develop a
review process for the justification of certain trips.

Recommendations

To ensure effective oversight of senior executive travel, we recommend that the:

   1. USFA/CFO develop risk-based criteria (such as cost, length of trip, or
      destination) to identify trips planned by senior executives that will require a
      prior review of the trip justification by their immediate supervisors. Revise
      the Travel Handbook to include the newly established criteria. Additionally,
      develop a process to document this review.

   2. Board of Regents formalize risk-based criteria (such as cost, length of trip, or
      destination) to identify trips planned by the Secretary that will involve a prior
      review by the Board. Additionally, document the process for this review.




                                          9


SMITHSONI
SMITHSONIAN INSTITUTION 	                           OFFI
                                                    OFFICE
                                                        CE OF TH
                                                              THEE INS
                                                                   INSPPEC
                                                                        ECTO
                                                                           TOR
                                                                             R GE
                                                                               GENERA
                                                                                 NERAL



Improving Procedures for Earning and Documenting Comp-Time Off for
Travel

The Smithsonian travelers we reviewed, including the Secretary, followed the
Smithsonian comp-time off for travel policies and procedures. However, we
determined that Smithsonian management needs to improve its policies by defining
standards for earning and documenting comp-time off for travel to be consistent
with federal travel practices. We also determined that the Board needs to reassess
whether all senior executives should be eligible for comp-time off for travel, again
to make the policy consistent with federal travel rules.

We found that for fiscal years 2009 through 2011, the Secretary earned
approximately 376 hours of comp-time off for travel. For the same period, we found
that 4 of the remaining 36 senior executives in our sample earned comp-time off
for travel, collectively earning approximately 489 hours.

Comp-time Off for Travel Procedures

In accordance with the Smithsonian’s Travel Handbook and Time and Attendance
Handbook, all employees, including the Secretary and senior executives, are eligible
to earn and accrue comp-time off for travel while traveling outside of normal duty
hours. These handbooks allow travelers to earn comp-time off for travel outside
normal duty hours under each of the following circumstances:

   		 Time spent traveling between the official duty station and a temporary duty
       station.

   		 Time spent traveling between two temporary duty stations.

       “Usual waiting time" preceding or interrupting such travel (e.g., waiting at
       an airport or train station prior to departure or between flights).

The Smithsonian developed its procedures from the federal regulations, which are
found in 5 Code of Federal Regulations, Subpart N Compensatory Time Off for
Travel. These regulations set forth the various parameters for earning comp-time
off for travel. Under these regulations, hours earned must be used within one year.

These regulations also provide that the employing agency has the sole and
exclusive discretion of defining what should be considered the ‘‘usual waiting time’’
for the traveler to earn comp-time off for travel. The regulations further provide
that “usual waiting time” includes time spent at airports before scheduled departure
and between connecting flights. For example, the Department of Commerce has
defined “usual waiting time” as not to exceed 2 hours for domestic travel and 4
hours for international travel. Similarly, the Departments of Energy and Agriculture
have adopted up to a 3 hour “usual waiting time” policy. However, the Smithsonian
has not defined “usual waiting time” preceding or interrupting travel.




                                          10


SMITHSONI
SMITHSONIAN INSTITUTION 	                          OFFI
                                                   OFFICE
                                                       CE OF TH
                                                             THEE INS
                                                                  INSPPEC
                                                                       ECTO
                                                                          TOR
                                                                            R GE
                                                                              GENERA
                                                                                NERAL



Because the Smithsonian’s procedures did not define “usual waiting time,” there
was no limit to the amount of comp-time off for travel hours a traveler could earn
in waiting for a flight, unlike federal agencies we reviewed. For example, one
Smithsonian traveler earned 17 comp-time off for travel hours for a trip from
Washington, D.C. to Nantucket, Massachusetts, most of which may have been
earned while waiting for a delayed flight.

Regarding documentation of comp-time off for travel, the Smithsonian does not
require that travelers maintain records to substantiate comp-time off for travel
hours earned. For example, at the Departments of Energy and Commerce,
employees must provide adequate documentation to the timekeeper or certifying
official in accordance with each agency’s policies. The Department of Commerce
specifically requires employees returning from travel to provide a chronological
record of travel information, including:

   •		 Duration of the normal home-to-work commute;
   •		 Time and place of departure (i.e., the employee’s home or official duty
       station);
   •		 Actual time spent traveling to and from the transportation terminal if the
       terminal is outside of the employee’s official duty station;
   •		 “Usual waiting time”; and
   •		 Time of arrival at and departure from the temporary duty station.

We found that for some of the senior executive travelers who earned comp-time off
for travel, the travel and time and attendance documentation did not always
document the hours earned. For several trips that we reviewed, the travelers or
their staff relied on trip itineraries and other supporting information to calculate
hours earned, but did not maintain documentation for the calculations.

Incomplete comp-time off for travel procedures at the Smithsonian make it difficult
to determine whether senior executives earned appropriate amounts of comp-time
off for travel. Therefore, because the Smithsonian’s procedures have not defined
“usual waiting time” nor do they require supporting documentation, employees
could earn comp-time off for travel in excess of what other federal agencies allow.

Senior Executives’ Eligibility to Earn Comp-Time Off for Travel

We found that Smithsonian’s practice of allowing all senior executives to earn
comp-time off for travel is inconsistent with the federal agencies we reviewed. In
addition, we found that senior executives at most similar non-profit organizations
we reviewed do not earn comp-time off for travel.

According to federal regulations, employees eligible for comp-time off for travel
include, but are not limited to, those in senior-level (SL) and scientific or
professional pay plans. Further, the regulations exclude heads of executive branch
agencies and members of the Senior Executive Service (SES) from earning comp-
time off for travel.



                                         11


SMITHSONI
SMITHSONIAN INSTITUTION                             OFFI
                                                    OFFICE
                                                        CE OF TH
                                                              THEE INS
                                                                   INSPPEC
                                                                        ECTO
                                                                           TOR
                                                                             R GE
                                                                               GENERA
                                                                                 NERAL



As previously discussed, the Smithsonian Time and Attendance and Travel policies
allow comp-time off for travel outside of normal duty hours. This benefit allows all
salaried employees, including the Secretary and all senior executives, to earn
comp-time off for travel.

Prior to October 2007, some Smithsonian senior executives, including the
Secretary, did not accrue or record leave and consequently did not earn comp-time
off for travel. In June 2007, the Board of Regents mandated that the Secretary
transition all Smithsonian employees, including senior executives, to a leave accrual
system by October 1, 2007. This transition was to ensure time and attendance
accountability for senior executives. At the time there was concern that former
senior executives, who did not accrue or record leave, were engaging in paid or
unrelated outside activities during regular business hours. Therefore, the
Governance Committee recommended that all Smithsonian employees follow the
federal leave policies.

By carrying out this mandate, the Smithsonian placed all of its senior trust
executives in the same leave accrual system as all other employees, including
senior federal executives. Smithsonian extended to its senior trust executives the
same leave benefits as its senior federal executives in the SL pay plan. As a result
of this decision, the Secretary and all senior trust executives became eligible to
earn comp-time off for travel.

The Smithsonian is not legally authorized to have executives in SES positions
because it is not an executive agency. However, some of the Smithsonian’s senior
executive positions are more closely comparable to federal SES positions. OPM
identifies the following functional criteria for a position to meet SES requirements:

      Directs the work of an organizational unit;
      Accountable for the success of one or more specific programs or projects;
      Monitors progress toward organizational goals and periodically evaluates and
       makes appropriate adjustments to such goals;
      Supervises the work of employees (other than personal assistants); or
      Exercises important policy-making, policy-determining, or other executive
       functions.

In addition, members of the SES system accrue leave, but are not entitled to earn
comp-time off for travel. Therefore, we believe that the decision to allow the
Secretary and all senior executives to earn comp-time off for travel merits
reconsideration. The Smithsonian opens itself to criticism by allowing its senior
executives to receive the comp-time off for travel benefit that other federal
executives with similar responsibilities do not receive. Further, we believe the Board
of Regents has the flexibility to define benefits that more closely align with
functional responsibilities.




                                          12


SMITHSONI
SMITHSONIAN INSTITUTION                             OFFI
                                                    OFFICE
                                                        CE OF TH
                                                              THEE INS
                                                                   INSPPEC
                                                                        ECTO
                                                                           TOR
                                                                             R GE
                                                                               GENERA
                                                                                 NERAL



Recommendations

To strengthen comp-time off for travel policies, we recommend that the USFA/CFO:

   3. Define the maximum hours for “usual waiting time” for comp-time off for
      travel earned and the appropriate method for documenting and approving
      comp-time off for travel. Revise both the Travel Handbook and Time and
      Attendance Handbooks to include the definition.

To more closely mirror the practices at federal and non-profit organizations, we
recommend that the Board of Regents:

   4. Reassess whether all senior executives should be eligible for comp-time off
      for travel.

The Board concurred with this recommendation and plans to transition the
Secretary and certain senior leaders to a non-leave accrual status, referred to by
the Board as “reasonable leave.” Consequently, these positions would not be
eligible to earn comp-time off for travel. Furthermore, the Board stated that during
the Board’s Governance and Nominating Committee’s tri-annual comprehensive
governance review later this year, the Committee will consider the propriety of
existing leave policies for the remaining senior executives.

As the Board moves these positions to a non-leave accrual status, we would expect
that the Board in establishing a “reasonable leave policy” will include appropriate
controls on leave to avoid a re-occurrence of previous time and attendance issues
involving several former senior executives. In addition, we did not recommend that
the Board transition executives to a non-leave accrual status. We believe that such
a transition is not the only option of addressing eligibility for comp-time off for
travel.

Continued Oversight for Travel Under Special Circumstances

While we did not find any travel abuse, management needs to continue its
oversight of travel involving special circumstances to mitigate the risk of actual or
perceived abuse. For the senior executives in our sample, including the Secretary,
we reviewed the following three special circumstances that require heightened
scrutiny based on risk: premium travel due to a medical condition, spousal travel,
and sponsored travel.

Premium Travel Allowed Due to a Medical Condition

According to the Travel Handbook, a traveler can be upgraded to a premium class
(business class when traveling internationally or first class for domestic travel) in
order to accommodate a medical condition. It requires a written statement from a
medical authority describing the approximate duration of the need for the special
accommodation. Non-permanent conditions must be re-verified annually by the
traveler. Permanent medical conditions need only be documented once.


                                          13


SMITHSONI
SMITHSONIAN INSTITUTION                              OFFI
                                                     OFFICE
                                                         CE OF TH
                                                               THEE INS
                                                                    INSPPEC
                                                                         ECTO
                                                                            TOR
                                                                              R GE
                                                                                GENERA
                                                                                  NERAL



We identified four travelers in our sample who received premium upgrades due to a
medical condition. Each of these travelers, including the Secretary, provided a
written statement from a physician specifying that non-coach class
accommodations are required due to a medical condition.

We interviewed the Secretary and one other senior executive to reconcile the
limitations caused by their medical conditions with their ability to perform certain
activities while on travel, such as hiking or riding in an off-road vehicle to a remote
site. These travelers provided explanations to clarify how their activities while on
official travel were consistent with their medical conditions. We found that the
premium upgrades for medical reasons we reviewed were compliant with
Smithsonian policies and procedures.

Spousal Travel

In limited circumstances, spouses may accompany employees on official
Smithsonian travel, in accordance with the policies and procedures. We identified 3
spouses whose travel expenses were paid by the Smithsonian for a total of 19 trips.
The Secretary’s wife accompanied him on 12 of these trips, all of which were paid
for with Smithsonian trust funds. The Secretary’s employment agreement specifies
that there may be occasions where his wife could accompany him on official
Smithsonian travel.

The Travel Handbook requires that the employee requesting spousal
accompaniment submit a request in writing, demonstrating the bona fide business
purpose for the spouse to travel and the manner in which such travel furthers the
mission of the Smithsonian. This request must be submitted to and approved by the
Smithsonian’s General Counsel, the Under Secretary for Finance and
Administration, and the Chief Financial Officer (the positions of USFA and CFO are
currently combined) prior to each trip.

We reviewed all travel in which a spouse accompanied a senior executive on trips
paid by the Smithsonian. We found that spousal travel adhered to Smithsonian
policies and procedures.

Sponsored Travel

Sponsored travel occurs when Smithsonian employees accept financial support from
an external source to fund travel expenses. Sponsoring organizations will either
directly pay or reimburse the Smithsonian for all or partial travel expenses. Prior
approval from the Smithsonian’s Office of General Counsel is required for trips
sponsored by for-profit organizations and foreign governments.




                                          14


SMITHSONI
SMITHSONIAN INSTITUTION                            OFFI
                                                   OFFICE
                                                       CE OF TH
                                                             THEE INS
                                                                  INSPPEC
                                                                       ECTO
                                                                          TOR
                                                                            R GE
                                                                              GENERA
                                                                                NERAL



We reviewed 88 sponsored trips, and for most of these trips, the travel
documentation in GovTrip was appropriate and prior approval was generally
granted, when applicable. However, we found eight instances where sponsored trips
were lacking some supporting information in GovTrip. In addition, we found two
sponsored trips that were excluded from GovTrip.

Unlike federal executive agencies, the Smithsonian is not required to submit
semiannual reports of travel and related expenses from non-federal sources to the
Office of Government Ethics. This reporting process underscores the importance of
closely tracking and monitoring travel expenses paid by non-federal sources to
identify potential conflicts. Therefore, the Smithsonian should continue to closely
monitor this travel to avoid conflicts.

Recommendation

To ensure continued oversight of sponsored trips, we recommend that the
USFA/CFO:

   5. Reinforce to Smithsonian staff that all sponsored trips should be authorized
      in GovTrip. In addition, reimbursements from sponsoring organizations
      should be recorded in GovTrip, where applicable.

Properly Documenting and Approving Travel Expenses on Purchase Orders

We found that Smithsonian staff issued purchase orders (POs) to pay travel
expenses for group trips to foreign destinations that included senior executives. POs
were used to procure services that included hotels, transportation, guided tours,
meals, and other miscellaneous costs. According to Smithsonian management, the
use of POs facilitates payments to vendors who may not accept credit cards.

However, in contrast to the travel approval process, an authorized travel approver
may not review POs for travel expenses. Therefore, there is a risk that staff may
circumvent Smithsonian travel policies and procedures when including travel costs
in POs. Specifically, subordinates may approve POs that include travel expenses for
senior executives. In addition, because these expenses do not go through the
normal travel review process, they may exceed the allowable amounts.

The Travel Handbook states that the approver of a traveler cannot be the
subordinate of the traveler. The Travel Handbook also states that actual meal or
lodging expenses that exceed per diem (the maximum allowable rate) are allowed,
but must be pre-approved in the authorization and thoroughly explained and
justified in the GovTrip record. In addition, the Travel Handbook states that the
receipts documenting travel expenses over $75 must be included in GovTrip.

We identified three instances where Smithsonian staff procured group travel
expenses with POs ranging from $14,800 to $31,300. One PO for $31,300 for travel
expenses to Azerbaijan was referenced in GovTrip, and the senior executive’s



                                         15


SMITHSONI
SMITHSONIAN INSTITUTION 	                         OFFI
                                                  OFFICE
                                                      CE OF TH
                                                            THEE INS
                                                                 INSPPEC
                                                                      ECTO
                                                                         TOR
                                                                           R GE
                                                                             GENERA
                                                                               NERAL



portion of travel expenses in that PO was appropriately itemized and approved in
GovTrip. However, this was not the case for the other two purchase orders we
reviewed.

   		 A PO for approximately $19,300 was issued for travel expenses within Lima,
       Peru. The travelers included two senior executives and four other
       Smithsonian staff. We noted that the PO was approved by a subordinate of
       the two senior executives.

      In addition, we determined that hotel expenses for four of the five nights
      exceeded the per diem rate. However, only one traveler, a senior executive,
      had obtained pre-approval for actual expenses as required. Further, only two
      travelers, including a senior executive, attached the PO of itemized expenses
      in GovTrip.

   		 A PO for approximately $14,800 was issued for travel expenses within Papua
       New Guinea for one senior executive and one Smithsonian staff member.
       While the PO was attached in GovTrip, we were unable to determine whether
       the expenses were reasonable and justified because they were not
       adequately itemized. In addition, the PO was approved by a subordinate of
       the senior executive traveler.

Without proper oversight, the use of POs may result in violations of the
Smithsonian’s travel authorization and approval guidelines, increasing the risk that
funds are used improperly. In light of recent news reports of inappropriate travel
expenses paid by federal agencies, we believe that Smithsonian management needs
to exercise greater scrutiny over the use of POs for travel expenses.

Recommendation

To ensure that travel expenses are properly authorized and approved, we
recommend that the Director of OCon&PPM:

   6. Revise the Travel Handbook to ensure that travel expenses paid by purchase
      orders are subject to the same standards of review as other travel expenses
      paid through the travel authorization and voucher process.

Strengthening the Requirements for Overseas Tour Renewal Agreement
Travel

FTR Chapter 302 – “Relocation Allowances,” outlines the policy governing Overseas
Tour Renewal Agreement Travel (OTRAT). OTRAT refers to a travel allowance that
permits an employee and immediate family to travel back to their place of
residence in the continental United States between overseas tours of duty.
Employees are eligible to receive an OTRAT allowance if they:




                                        16


SMITHSONI
SMITHSONIAN INSTITUTION 	                           OFFI
                                                    OFFICE
                                                        CE OF TH
                                                              THEE INS
                                                                   INSPPEC
                                                                        ECTO
                                                                           TOR
                                                                             R GE
                                                                               GENERA
                                                                                 NERAL



   a.		 Are on an overseas assignment, have completed a tour of duty, and 

        satisfactorily completed their service agreement time period; and 


   b. Are on an overseas assignment and have signed a new service agreement to
      remain at their overseas post or to transfer to another overseas post of
      duty; or

   c.		 Meet the requirements and are eligible for tour renewal travel from Alaska or
        Hawaii.

In addition, the FTR allows employees to travel to locations other than their original
place of residence, but they will only be reimbursed for the cost to their place of
residence.

Smithsonian Directives (SD) 212 and 213, Federal Personnel Handbook and Trust
Personnel Handbook (Personnel Handbooks), respectively, provide the
implementing guidance for the OTRAT policy. The Personnel Handbooks follow the
FTR employee eligibility requirements for OTRAT. Prior to each trip back to their
residence, employees must sign a service agreement to remain in service, for at
least one additional year, upon return to the overseas duty stations.

Over a three year period (calendar years 2009 through 2011), the Smithsonian paid
approximately $40,000 in OTRAT allowances to 11 Smithsonian Tropical Research
Institute (STRI) employees, including one senior executive. We found that the
Smithsonian Personnel Handbooks do not include all requirements of a service
agreement as outlined in the FTR. The Smithsonian has not developed a standard
service agreement in these handbooks; therefore, STRI management developed
their own service agreement. However, the STRI service agreements we reviewed
did not contain the following FTR requirements:

   		   Employee’s effective date of transfer or appointment;
   		   Employee’s place of residence at time of appointment;
   		   Names of all employee dependents authorized to travel under OTRAT; and
   		   Employee’s agreed upon period of time to remain in service.

According to management, the Office of Human Resources is revising and updating
these handbook provisions and forms, as well as developing standard operating
procedures.

Although OTRAT involves employee travel, we found that the Smithsonian does not
reference OTRAT in its Travel Handbook. The lack of coordination between the
Travel and Personnel Handbooks adds to the confusion regarding the proper
implementation of the OTRAT policy. In addition, the person responsible for
approving the associated travel expenses in GovTrip is unlikely to have access to or
knowledge of the employee’s service agreement.




                                         17


SMITHSONI
SMITHSONIAN INSTITUTION                              OFFI
                                                     OFFICE
                                                         CE OF TH
                                                               THEE INS
                                                                    INSPPEC
                                                                         ECTO
                                                                            TOR
                                                                              R GE
                                                                                GENERA
                                                                                  NERAL



These weaknesses in the Smithsonian’s OTRAT policy increase the risks that travel
expenses will be paid for ineligible family members, for employees not returning to
fulfill their service obligation, or for excessive travel costs. For example, we
identified one OTRAT trip in which an employee was reimbursed for a trip that was
not to his original place of residence, but rather to a different location, at a higher
cost.

Recommendations

To strengthen Smithsonian OTRAT procedures, we recommend that the Director of
the Office of Human Resources:

   7. Develop a standardized service agreement, in accordance with the FTR.
      Revise SDs 212 and 213, Federal Personnel Handbook and Trust Personnel
      Handbook, Chapter 591 Allowances and Differential, Overseas Tour Renewal
      Agreement Travel to incorporate the standardized service agreement.
      Additionally, include language in the handbooks to address OTRAT travel to
      destinations other than an employee’s original place of residence.

We also recommend that the Director of OCon&PPM:

   8. Update the Travel Handbook to include Overseas Tour Renewal Agreement
      Travel procedures, in accordance with the revised SDs 212 and 213.




                                          18


SMITHSONI
SMITHSONIAN INSTITUTION                           OFFI
                                                  OFFICE
                                                      CE OF TH
                                                            THEE INS
                                                                 INSPPEC
                                                                      ECTO
                                                                         TOR
                                                                           R GE
                                                                             GENERA
                                                                               NERAL



                                                                      APPENDIX A


OBJECTIVES, SCOPE, AND METHODOLOGY

The objectives of this audit were to assess whether: 1) executive travelers complied
with laws, regulations, and Smithsonian policies and procedures, including for
accompanying spousal travel; 2) travel management controls operated properly,
including oversight by the Board of Regents and other authorities; and 3) travel
was for authorized purposes and for reasonable amounts.

Our audit assessed senior executive travel from FY 2009 through FY 2011 and the
Smithsonian Secretary’s travel between July 2008 and March 2012. Our audit also
evaluated any spousal travel paid for by the Smithsonian during these periods.

To accomplish our objectives we reviewed the Federal Travel Regulations, the Office
of Personnel Management comp-time off for travel guidance, and the Smithsonian’s
policies and procedures related to travel and time-keeping. We also reviewed the
Office of the Comptroller’s (OC) reviews of senior executive travel for FYs 2009
through 2011 and reports by other federal Offices of the Inspector General that
have evaluated travel management. Further, we examined best practices for travel
and oversight of senior executive travel at similar organizations.

We assessed the reliability of the data from the GovTrip system through extensive
transaction testing and discussions with staff from OC’s Travel Management Office.
We determined that the data was sufficiently reliable for the purposes of this
report.

We evaluated travel controls and procedures at the Smithsonian through interviews
with staff from the Offices of the Board of Regents; the Secretary; the Under
Secretary for Science; the Under Secretary for History, Art, and Culture; and the
Under Secretary for Finance and Administration and Chief Financial Officer. We met
with staff from the Offices of the Comptroller, General Counsel, Human Resources,
and Advancement. We also met with selected travelers and travel approvers.

To evaluate the Comptroller’s travel review process, we reviewed a judgmental
sample of 169 trips taken by 36 Smithsonian senior executives and two spouses
totaling $713,894. We also reviewed 88 trips taken by the Secretary and his spouse
totaling $132,536. Because we selected a judgmental sample for our review of
Smithsonian senior executives, we cannot project the results of our review to the
universe of trips taken by the senior executive travelers.

To evaluate comp-time off for travel earned, we reviewed webTA (the
Smithsonian’s time and attendance management system) records for all senior
executives in our sample. We compared dates where comp-time off for travel was
recorded in webTA to corresponding trips in GovTrip. We reviewed available
documentation supporting hours claimed for comp-time off for travel earned.


                                        A-1 

SMITHSONI
SMITHSONIAN INSTITUTION                            OFFI
                                                   OFFICE
                                                       CE OF TH
                                                             THEE INS
                                                                  INSPPEC
                                                                       ECTO
                                                                          TOR
                                                                            R GE
                                                                              GENERA
                                                                                NERAL



                                                                       APPENDIX A


OBJECTIVES, SCOPE, AND METHODOLOGY (Continued)

We identified three trips, between FY 2009 and 2011, where Smithsonian paid over
$65,000 for travel expenses through purchase orders. We contacted Smithsonian
units to obtain purchase orders and supporting documentation. We evaluated these
purchase orders to determine if the Smithsonian travel policies and procedures
were followed regarding proper travel approval and documentation.

We conducted this performance audit in Washington, D.C. and Arlington, VA, from
March through November 2012, in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings
and conclusions based on our audit objectives. We believe that the evidence we
obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives.




                                         A-2 

SMITHSONI
SMITHSONIAN INSTITUTION           OFFI
                                  OFFICE
                                      CE OF TH
                                            THEE INS
                                                 INSPPEC
                                                      ECTO
                                                         TOR
                                                           R GE
                                                             GENERA
                                                               NERAL



                                                     APPENDIX B 



MANAGEMENT’S RESPONSE 





                          B-1


SMITHSONI
SMITHSONIAN INSTITUTION              OFFI
                                     OFFICE
                                         CE OF TH
                                               THEE INS
                                                    INSPPEC
                                                         ECTO
                                                            TOR
                                                              R GE
                                                                GENERA
                                                                  NERAL



                                                        APPENDIX B


MANAGEMENT’S RESPONSE (Continued)




                             B-2


SMITHSONI
SMITHSONIAN INSTITUTION              OFFI
                                     OFFICE
                                         CE OF TH
                                               THEE INS
                                                    INSPPEC
                                                         ECTO
                                                            TOR
                                                              R GE
                                                                GENERA
                                                                  NERAL



                                                        APPENDIX B


MANAGEMENT’S RESPONSE (Continued)




                             B-3


SMITHSONI
SMITHSONIAN INSTITUTION              OFFI
                                     OFFICE
                                         CE OF TH
                                               THEE INS
                                                    INSPPEC
                                                         ECTO
                                                            TOR
                                                              R GE
                                                                GENERA
                                                                  NERAL



                                                        APPENDIX B


MANAGEMENT’S RESPONSE (Continued)




                             B-4


SMITHSONI
SMITHSONIAN INSTITUTION               OFFI
                                      OFFICE
                                          CE OF TH
                                                THEE INS
                                                     INSPPEC
                                                          ECTO
                                                             TOR
                                                               R GE
                                                                 GENERA
                                                                   NERAL



                                                         APPENDIX C 



THE BOARD OF REGENTS’ RESPONSE 





                              C-1 

SMITHSONI
SMITHSONIAN INSTITUTION               OFFI
                                      OFFICE
                                          CE OF TH
                                                THEE INS
                                                     INSPPEC
                                                          ECTO
                                                             TOR
                                                               R GE
                                                                 GENERA
                                                                   NERAL



                                                         APPENDIX C


THE BOARD OF REGENTS’ RESPONSE (Continued)




                              C-2 

SMITHSONI
SMITHSONIAN INSTITUTION               OFFI
                                      OFFICE
                                          CE OF TH
                                                THEE INS
                                                     INSPPEC
                                                          ECTO
                                                             TOR
                                                               R GE
                                                                 GENERA
                                                                   NERAL



                                                         APPENDIX C


THE BOARD OF REGENTS’ RESPONSE (Continued)




                              C-3 

SMITHSONI
SMITHSONIAN INSTITUTION               OFFI
                                      OFFICE
                                          CE OF TH
                                                THEE INS
                                                     INSPPEC
                                                          ECTO
                                                             TOR
                                                               R GE
                                                                 GENERA
                                                                   NERAL



                                                         APPENDIX C


THE BOARD OF REGENTS’ RESPONSE (Continued)




                              C-4 

SMITHSONI
SMITHSONIAN INSTITUTION                        OFFI
                                               OFFICE
                                                   CE OF TH
                                                         THEE INS
                                                              INSPPEC
                                                                   ECTO
                                                                      TOR
                                                                        R GE
                                                                          GENERA
                                                                            NERAL



                                                                  APPENDIX D


MAJOR CONTRIBUTORS TO THIS REPORT

Brian Lowe, Supervisory Auditor
Joan Mockeridge, Supervisory Auditor
Teena Propst, Auditor-in-Charge
Kimm A. Richards, Auditor-in-Charge
Joseph E. Benham, Auditor
Steven Townsend, Auditor
Elsy Woodill, Auditor
Kayla Norwood, Auditor




                                       D-1 

